U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




           NATIONAL OCEANIC AND
     ATMOSPHERIC ADMINISTRATION/
  NATIONAL MARINE FISHERIES SERVICE
                         Northwest Fisheries Science Center
                                        Seattle, Washington

                           NOAA Needs to Use Appropriate
            Funding Instruments to Acquire Support Services
                For the Northwest Fisheries Science Center
            Final Audit Report No. STL-15753-4-0001/January 2004




                            PUBLIC
                            RELEASE
               Office of Audits, Seattle Regional Office
, ,
                                        "",~..~ 0' COo


                                  ;   ~q.     \1."#
                                              X         "..
                                                     1\0",



                                                              UNITED      STATES      DEPARTMENT   OF COMMERCE
                                  c;               -   ~
                                  ~
                                   ~..     ~ -        $,J
                                                 - #>~q.
                                         .t~"Trsof '"
                                                              Office   of Inspector
                                                              Washington,    0	 C 20230
                                                                                        General




        JA.N1 2 2004




       MEMORANDUM         FOR:	           Helen Hurcombe, Director

                                          Acquisition and Grants Office

                                          National Oceanic and Atmospheric Administration


                                          Dr. Usha Varanasi, Director,
                                          NMFS Northwest Fisheries Science Center
                                          National Oceanic and Atmospheric Administration
      FROM:	                              Michael Sears           M~                  ~
                                          Assistant Inspector General for Auditing
      SUBJECT:	                           NOAA Needs to Use Appropriate Funding Instruments to

                                          Acquire Support Services for the Northwest Fisheries

                                          Science Center

                                          Final Audit Report No. STL-15753-4-0001

      As a follow up to our draft report, dated September 26, 2003, this is our final report on
      the funding instruments used by NOAA to acquire support services for the Northwest
      Fisheries Science Center in Seattle. While conducting the audit of the Pacific States
      Marine Fisheries Commission (Audit Report No. STL-14956-2-0001, issued in
      September 2002), we became aware of issues requiring NOAA management's attention.
      We found that NOAA inappropriately used cooperative agreements to acquire support
      services from the Pacific States Marine Fisheries Commission. In addition, we found that
      due to the manner in which NMFS administered the cooperative agreements and a related
      contract with the commission, NMFS appeared to have an employer-employee
      relationship with the recipient's personnel, which would violate federal regulations.

      Weperformedour audit fieldworkfromApril 8,2002 to December16,2002 at the
      commission offices in Gladstone, Oregon, and at several NOAA locations-- Northwest
      Fisheries Science Center offices in Seattle, Manchester, and Mukilteo, Washington;
      Western Administrative Support Center (WASC) Acquisition Management Division in
      Seattle; and NOAA Grants Management Office in Silver Spring, Maryland.

      In responding to our draft report, NOAA agreed with our recommendations and described
      actions planned or taken to implement them. After reviewing NOAA's response we are
      satisfied that the agency has taken appropriate steps to ensure utilization of the
      appropriate funding instruments relating to PSMFC projects and ensure that NMFS'
      oversight of the commission's employees avoids even the appearance that NMFS
      personnel are exercising continuous supervision and control over non-NMFS employees.
As a result, the response constitutes an acceptable Audit Action Plan as required by
Department Administrative Order 213-5, Audit Resolution and Follow-up and, hence, a
separate plan is not necessary. We appreciate the cooperation extended by your staff
during the audit. Should you have any questions, please contact me at (202) 482-1934 or
David Sheppard, Seattle Regional Inspector General for Audits, on (206) 220-7970.




                                          2

U.S. Department of Commerce                                    Final Report STL-15753-4-0001
Office of Inspector General                                                     January 2004

Introduction

The National Marine Fisheries Service (NMFS) is responsible for preventing the
extinction and protecting the habitats of marine fish, mammals, sea turtles, and
anadromous fish (salmon and other species that migrate between the oceans and inland
waters). Moreover, NMFS has Endangered Species Act (ESA) jurisdiction over
anadromous fish; the agency’s efforts in this area require working in partnership with a
variety of local, state, and other federal entities.

Dams built and operated by the U.S. Army Corps of Engineers (Corps) impact salmon
spawning and mortality rates. The Corps operates eight multiple-purpose dams on the
lower Columbia and Snake Rivers through which salmon migrate to and from upstream
spawning/rearing areas and the ocean.

Dams also play an important role in the transmission of electricity to the Northwest
region. The Bonneville Power Administration (Bonneville) markets electricity from 31
federal dams in the region and also funds fish and wildlife mitigation.

The Pacific States Marine Fisheries Commission (PSMFC), authorized by Congress in
1947, is one of three interstate commissions dedicated to resolving fishery issues. The
PSMFC addresses issues that fall outside state or regional management council
jurisdiction, serving as a forum to reach consensus among state and federal authorities.

NOAA awarded cooperative agreement number NA87FH0082, in April 1998, to the
commission for a three-year period ending March 31, 2001. The total budget for the
award was $3,207,915, which was funded directly by NOAA, although it received most
of the funding through reimbursable agreements with the Corps and Bonneville, as shown
in Figure 1 on page 3. The Economy Act provided the authorization for both the Corps
and Bonneville reimbursable agreements with NOAA.

Under the agreement’s terms and conditions, the commission staff was to provide the
following support services at the NMFS labs in Manchester, Mukilteo, Pasco, and Seattle,
Washington; and Hammond, Oregon.

•	     Monitor and record biological and spawning behavior data on captive fish
       broodstock population.

•	     Collect, handle, and mark juvenile or adult fish as determined by research
       protocol.

•	     Tabulate, summarize, and prepare initial analysis of data.




                                            3

U.S. Department of Commerce                                    Final Report STL-15753-4-0001

Office of Inspector General                                                     January 2004



       Thousands
          $3,500
          $3,000     $213
          $2,500     $830
          $2,000                                                       Others
          $1,500                   $3,000           $486               NOAA
          $1,000    $2,152                                             Corps
            $500                                $1,324
                                                                       Bonneville
              $0
                   $3,207,915    $3,000,000    $1,869,242
                    April 1998     May 2000      April 2001
                   Cooperative      Contract    Cooperative
                    Agreement                   Agreement


       Figure 1: Award Fund Sources

In May 2000, NOAA entered into contract 50ABNF000048 with the commission to
provide support services at an estimated cost of $3,000,000 over a three-year period.
Although NOAA funded the contract, it received all of the money from the Corps
through another Economy Act reimbursable agreement with NOAA. Under this
reimbursable agreement, the Corps requested that NOAA enter into a contract rather than
a cooperative agreement with the commission because the work was identifiable and did
not require substantial involvement by the government. Specifically, the commission
furnished support services, which included collecting environmental and biological data;
providing physical, biological, or biochemical analysis; and providing the fabrication,
installation, operation, maintenance and repair of research equipment at the NMFS labs in
Pasco, Washington and Hammond, Oregon.

In April 2001 NOAA awarded the commission a second cooperative agreement
(NA17FH1110) for $553,621 to perform similar tasks as those outlined in the 1998
cooperative agreement, limited to only the NMFS labs in Manchester, Mukilteo, and
Seattle. These tasks were funded primarily by NOAA and Bonneville, as shown in
Figure 1. The cooperative agreement was amended three times to increase the funding
amount to $1,869,242 and was to be completed on March 31, 2003.

Objective, Scope, and Methodology

The purpose of the audit was to determine whether NOAA appropriately used
cooperative agreements to acquire the services specified. Our fieldwork included
interviews with NOAA officials and reviews of grant files, financial records, and
supporting documents. We did not analyze the Northwest Fisheries Science Center’s
internal controls, nor did we rely on the center’s computer-processed data.
In conducting our audit, we used criteria established in applicable laws, regulations, and
guidelines including the Federal Grant and Cooperative Agreement Act of 1977, Federal
Acquisition Regulation, Part 37-- Service Contracting, and the Department’s Interim
Grants and Cooperative Agreements Manual.


                                               4

U.S. Department of Commerce                                     Final Report STL-15753-4-0001
Office of Inspector General                                                      January 2004

This audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States, and was performed under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order
10-13, dated May 22, 1980, as amended.

A PROPERLY ADMINISTERED PROCUREMENT CONTRACT
SHOULD BE USED TO ACQUIRE SUPPORT SERVICES

We found that NOAA was inappropriately using cooperative agreements as the funding
instruments to acquire support services from the commission. Since the services acquired
under both the 1998 and 2001 cooperative agreements were for the direct benefit or use
of the federal government, NOAA should have used a procurement contract to acquire
the commission’s services. Further compounding this situation were indications that an
unauthorized employer-employee relationship existed between NOAA and the
commission staff.

Cooperative Agreements Were Inappropriate
Funding Instruments for Acquiring Support Services

In obtaining support services for the Northwest Fisheries Science Center from the Pacific
States Marine Fisheries Commission, NOAA entered into two cooperative agreements
with the commission.

Chapter 63 of Title 31 of the United States Code, “Using Procurement Contracts and
Grant and Cooperative Agreements,” which codified The Federal Grant and Cooperative
Agreement Act of 1977, prescribes the specific criteria by which executive agencies must
select the appropriate legal instruments for the acquisition of property and services and in
providing federal financial assistance. Section 6305, on the use of cooperative
agreements, states that:

       An executive agency shall use a cooperative agreement as the legal
       instrument reflecting a relationship between the United States Government
       and a State, a local government, or other recipient when – (1) the principal
       purpose of the relationship is to transfer a thing of value to the State, local
       government, or other recipient to carry out a public purpose of support or
       stimulation authorized by a law of the United States instead of acquiring
       (by purchase, lease, or barter) property or services for the direct benefit or
       use of the United States Government; and (2) substantial involvement is
       expected between the executive agency and the State, local government, or
       other recipient when carrying out the activity contemplated in the
       agreement.

In contrast, 31 U.S.C. Section 6303, on the use of procurement contracts, provides that:

       An executive agency shall use a procurement contract as the legal
       instrument reflecting a relationship between the United States Government



                                             5

U.S. Department of Commerce                                   Final Report STL-15753-4-0001

Office of Inspector General                                                    January 2004


       and a State, a local government, or other recipient when – (1) the principal
       purpose of the instrument is to acquire (by purchase, lease, or barter)
       property or services for the direct benefit or use of the United States
       Government; or (2) the agency decides in a specific instance that the use
       of a procurement contract is appropriate.

NOAA used the incorrect instrument when it entered into two cooperative agreements
with the commission to obtain support services. Under both cooperative agreement Nos.
NA87FH0082 and NA17FH1110, NOAA sought services which directly benefited its
own in-house research.

Under cooperative agreement NA87FH0082, NOAA required the commission to perform
31 specific tasks during the award period ended March 31, 2001. We found during our
audit that these tasks consisted of services provided by the commission for the direct
benefit of NOAA. For example,

   •	 In one of the tasks related to NOAA’s research on smolt migrations of Wild
      Chinook Salmon, the commission’s technician primarily assisted a NOAA project
      leader and other federal employees in the maintenance, transportation, and
      distribution of research and fish marking equipment. As a direct application to
      the government research, the technician also assisted in the maintenance and
      retrieval of environmental monitors.

   •	 In another task related to NOAA’s research pertinent to the Redfish Lake Sockeye
      Restoration Broodstock Program, the commission’s fish biologist followed
      NOAA experimental protocols to collect, preserve, and record various behavioral,
      physical and morphological data. As an immediate benefit to federal researchers,
      the biologist further assisted in culturing the brood, observing the behavior, and
      evaluating the survival of the salmon.

These services are clearly for the direct benefit or use of the Federal Government. As
such, a contract is the appropriate funding instrument. The commission provides similar
support services for the direct benefit of the government under the current cooperative
agreement NA17FH1110 with the NOAA.

Although NOAA used a cooperative agreement in the above noted examples, agency
officials entered into a contract with the commission in May 2000 to obtain similar
services at the NOAA labs in Pasco, Washington and Hammond, Oregon because,
according to a commission official, the Corps had requested that NOAA use a
procurement contract.

Recommendation

We recommend the NOAA Office of Finance and Administration, Director of
Acquisition and Grants, take the necessary actions to ensure that appropriate funding




                                            6

U.S. Department of Commerce                                     Final Report STL-15753-4-0001
Office of Inspector General                                                      January 2004

instruments are used to acquire support services for the NMFS Northwest Fisheries
Science Center.

NOAA’s Response to Draft Audit Report

NOAA concurred with our recommendation. In its response, NOAA stated that the
Grants Management Division has provided training to the center’s program officers
relating to the use of grants versus contracts. For PSMFC projects, NOAA’s response
stated that it will request the center to include a certification that the projects to be
performed are not contractual by nature. In addition, NOAA stated that the Grants
Management Division will continue to confer with the Department’s Office of General
Counsel to ensure that the correct funding instrument is used for proposed funding to
PSMFC. Finally, NOAA stated if contractual elements are discovered, the Grants Officer
will, after conferring with the Director of the Acquisition and Grants Office, transfer
those elements to the Western Administrative Support Center for review and funding as a
contract.

NOAA agreed that some of the activities funded under the cooperative agreements were
for the direct benefit or use of the federal government and that, as of last year, these
activities have been suspended under the cooperative agreements, and are now funded
through appropriate contracts. However, NOAA asserted that its research activities
involving captive broodstock technology and marine fish culture are for the benefit of the
scientific community at large, state agencies, tribes and other recipients and as such are
appropriately funded through a cooperative agreement.

OIG Comments

We commend NOAA for taking immediate and appropriate actions to address our
recommendation. After reviewing NOAA’s response to the draft report, as summarized
above, we are satisfied that the agency has taken appropriate steps to ensure utilization of
the appropriate funding instruments relating to PSMFC projects.

NMFS Should Avoid Prohibited Employer-Employee
Relationships with Commission Staff

As set forth in Subpart 37.1 of the Federal Acquisition Regulation (FAR), federal
agencies are prohibited from awarding personal services contracts unless such a contract
is specifically authorized by statute. The hallmark of a personal services contract is the
establishment of an employer-employee relationship between the government and the
contractor’s personnel, and the government is expected to obtain its employees by direct
hire under competitive procedures, not through a personal services contract. Subpart
37.104(c) 1 of the FAR provides that:

       An employer-employee relationship under a personnel service contract
       occurs when, as a result of (i) the contract’s terms or (ii) the manner of its
       administration during performance, contractor personnel are subject to the



                                             7

U.S. Department of Commerce                                      Final Report STL-15753-4-0001

Office of Inspector General                                                       January 2004


        relatively continuous supervision and control of a Government officer or
        employee.

Specific “descriptive elements” are provided in Subpart 37.104(c)2 as a guide to assist
agencies in “assessing whether or not a proposed contract is personal in nature.” Among
these elements are whether:

     1.	 the contractor’s performance takes place on site at the agency;

     2.	 the government provides tools and equipment to the contractor’s personnel;

     3.	 the work performed by the contractor is applied directly to the integral effort of an
         agency in furtherance of its mission;

     4.	 comparable services are being performed within the federal government by civil
         service employees; and

     5.	 the need for the service to be performed is likely to exceed one year.

During our review, we observed that NMFS employees appeared to be treating the
commission workers as NMFS employees during the performance of both the
cooperative agreements.

We found that the commission personnel, working under the cooperative agreement,
were subject to relatively continuous supervision and control by NMFS employees. For
example:

●	      NMFS supervisors directed work of commission staff at the various labs. Each of
        the eight employees we interviewed stated that they relied on the NMFS
        supervisors for direction of their work activities and considered the NMFS
        employees as their “supervisors.”

●	      NMFS supervisor recommended monetary awards for commission employees. A
        NMFS supervisor recommended to the commission that seven employees receive
        a specified monetary award for services related to a NMFS presentation. Each
        employee received the recommended monetary award.

●	      NMFS supervisors authorized the hiring of commission employees. Of the 14
        commission employee files we reviewed, we found that a NMFS supervisor
        signed the commission’s documentation authorizing the hiring of all 14
        employees.

●	      A NMFS center supervisor authorized the cost of living allowance and promotion
        for a commission employee. A NMFS supervisor authorized a COLA and
        promotion of a commission employee working at the Manchester Field Station in
        January 2000.



                                              8

U.S. Department of Commerce                                  Final Report STL-15753-4-0001
Office of Inspector General                                                   January 2004


Although our audit did not focus on evaluating NMFS’ relationship with the commission
during the performance of the contract with the commission, NMFS officials told us that
the contract was being managed in the same manner as the cooperative agreements.

Given the above circumstances, it appears that a prohibited employer-employee
relationship may have existed in the administration of the two cooperative agreements
and the contract because the commission’s personnel were subject to relatively
continuous supervision and control by NMFS employees. To avoid this problem in the
future, NMFS needs to ensure that it does not manage its support services contracts in
such a way that they become or have the appearance of prohibited personal services
contracts.

Recommendation

We recommend the Assistant Administrator for Fisheries take the necessary actions to
ensure, as part of the procurement process, that NMFS' oversight of the commission's
employees avoids even the appearance that NMFS personnel are exercising continuous
supervision and control over non-NMFS employees.

NOAA Response to Draft Report

NOAA concurred with our recommendation. In its response, NOAA stated that
subsequent to our audit NOAA staff attended workshops that provided guidance for
avoiding personal services contract. Moreover, PSMFC will reportedly appoint site
supervisors to act as intermediaries between NOAA and commission staff. The site
supervisors will have responsibilities for recommending awards, promotions, and other
personnel actions.

OIG Comments

We again commend NOAA for taking immediate and appropriate actions to address our
recommendation. After reviewing NOAA’s response to the draft report, as summarized
above, we are satisfied that the agency has taken appropriate steps to ensure that NMFS'
oversight of the commission's employees avoids even the appearance that NMFS
personnel are exercising continuous supervision and control over non-NMFS employees.



cc: 	   John J. Kelly, Deputy Under Secretary of Commerce for Oceans and Atmosphere
        Gary Reisner, Chief Financial Officer, NOAA
        Michael J. Nelson, Chief, Grants Management Division, NOAA
        Mack A. Cato, Director, Audit, Internal Control, and Information
          Management Office




                                           9

U.S. Department of Commerce   Final Report STL-15753-4-0001
Office of Inspector General                    January 2004
                                                     Appendix I
                                                     Page 1 of 6
U.S. Department of Commerce   Final Report STL-15753-4-0001
Office of Inspector General                    January 2004
                                                     Appendix I
                                                     Page 2 of 6
U.S. Department of Commerce   Final Report STL-15753-4-0001
Office of Inspector General                    January 2004
                                                     Appendix I
                                                     Page 3 of 6
U.S. Department of Commerce   Final Report STL-15753-4-0001
Office of Inspector General                    January 2004
                                                     Appendix I
                                                     Page 4 of 6
U.S. Department of Commerce   Final Report STL-15753-4-0001
Office of Inspector General                    January 2004
                                                     Appendix I
                                                     Page 5 of 6
U.S. Department of Commerce   Final Report STL-15753-4-0001
Office of Inspector General                    January 2004
                                                     Appendix I
                                                     Page 6 of 6
U.S. Department of Commerce                                Final Report STL-15753-4-0001

Office of Inspector General                                                 January 2004


bcc:   Johnnie Frazier, Inspector General
       Lisa Barlow, Counsel to the Inspector General
       Carey Croak, Deputy Counsel to Inspector General
       Anthony Mayo, Assistant Inspector General for Investigations
       Michael Sears, Assistant Inspector General for Auditing
       Larry Gross, Deputy Assistant Inspector General for Auditing
       William Bedwell, Deputy Assistant Inspector General for Regional Audits (2
       copies)
       Jackie Day, Auditor, OA
       Annie Holmes, Management Assistant
       Belinda Robinson, Editor
       Project File (2)
       David Sheppard, RIGA
       Report File
       Chron
